 

IN THE

SUPREME COURT OF THE UNITED STATES

 

PAUL PATRICK JOLIVETTE — PETITIONER
(Your Name)

 

VS.
UNITED STATES DISTRICT COURT FOR
‘THE NORTHERN DISTRICT OF CALIFORNIA _ RESPONDENT/(S)

PROOF OF SERVICE

I, STERLING SAMM , do swear or declare that on this date,

uly 14,202 20.21, as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

and PETITION FOR REHEARING on each party to the above proceeding

or that party’s counsel, and on every other person required to be served, by depositing

an envelope containing the above documents in the United States mail properly addressed

to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:

Solicitor General of The United States —_
Department: of Justice, Room 5616.
—_ 950 Pennsylvania Avenue, W.W.

Washington, D.C, 20530-0001.

 

 

 

   

I declare under penalty of perjury that the foregoing is true and correct.

De 'G+202I
——xecutet-on— > 20.

 

(Signature)
